Report No. D-2010-045                February 22, 2010




     2003 Real Estate Transactions of the Armed Forces
                Retirement Home - Gulfport
Additional Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (703) 604-8932, or by mail:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-4704




Acronyms and Abbreviations
AFRH                          Armed Forces Retirement Home
COO                           Chief Operating Officer
GSA                           General Services Administration
H.R.                          House of Representatives
IG                            Inspector General
NAVFAC                        Naval Facilities Engineering Command
NDAA                          National Defense Authorization Act
USD(P&R)                      Under Secretary of Defense for Personnel and Readiness
                                 INSPECTOR GENERAL
                                 DEPARTMENT OF DEFENSE
                                   400 ARMY NAVY DRIVE
                              ARLINGTON, VIRGINIA 22202-4704




                                                                        February 22,2010

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE FOR PERSONNEL
                  AND READINESS
              NAVAL INSPECTOR GENERAL
              CHIEF OPERATING OFFICER, ARMED FORCES
                 RETIREMENT HOME

SUBJECT: 2003 Real Estate Transactions of the Armed Forces Retirement Home-
        Gulfport (Rep0l1 No. D-201 0-045)

We are providing this repoti for your information and use. We performed this audit in
response to language contained in the repo11 of House Armed Services Committee
accompanying H.R. 2647 (H. Rept 111-166), the National Defense Authorization Act for
FY 2010. The report required the DOD Office ofInspector General to review the Armed
Forces Retirement Home's 2003 real estate transactions in Gulfport, Mississippi. We
considered management comments on a draft of this report when preparing the finairepoti.

The comments of the Deputy Under Secretary of Defense (Military Community and
Family Policy) conformed to the requirements of DOD Directive 7650.3. Therefore,
additional comments are not required,

We appreciate the courtesies extended to the staff. Please direct questions to me at
(703) 604-9201 (DSN 664-9201).


                                                       13.
                                             Richard B. Jolliffe
                                             Assistant InspectOl' General
                                             Acquisition and Contract Management
Report No. D-2010-045 (Project No. D2009-D000CG-0276.000)                       February 22, 2010

               Results in Brief: 2003 Real Estate
               Transactions of the Armed Forces
               Retirement Home - Gulfport
                                                         two beachfront parcels for about $1 million.
What We Did                                              However, if AFRH officials had required
We initiated the audit in response to language           appraisals of the two beachfront properties
contained in the report of the House Armed               before the sale, officials may have been able to
Services Committee accompanying H.R. 2647                sell the properties for a higher amount, resulting
(H. Rept 111-166), the National Defense                  in additional money for the AFRH Trust Fund.
Authorization Act for FY 2010. The report                In addition, the use of separate real estate agents
required the DOD Office of Inspector General             could have decreased the appearance of a
to review the 2003 real estate transactions by the       conflict of interest and increased documentation
Armed Forces Retirement Home (AFRH) in                   of the negotiations.
Gulfport, Mississippi.
                                                         What We Recommend
We determined whether AFRH complied with                 We recommend that the Chief Operating
applicable laws and regulations when                     Officer, AFRH, in future disposals of excess
conducting its real estate transactions in               property:
Gulfport. We reviewed the decisions that led to              Obtain an appraisal by an accredited
the real estate transactions and determined                     appraiser of the property to be disposed
whether AFRH followed appropriate                               of.
procedures.                                                  Maintain adequate documentation of the
                                                                rationale for and process followed in all
What We Found                                                   real estate transactions, including
We identified internal control weaknesses                       negotiations between AFRH and any
related to AFRH’s 2003 real estate transactions                 potential buyers.
in Gulfport. AFRH officials acted within the
authority given to them under Public Law 107-            Management Comments and
107, “National Defense Authorization Act for             Our Responses
FY 2002” (FY 2002 NDAA), when acquiring a
                                                         The Deputy Under Secretary of Defense
10.02-acre parcel of property adjacent to the
                                                         (Military Community and Family Policy) agreed
AFRH-Gulfport facility and subsequently
                                                         with both recommendations. The Deputy’s
disposing of the two beachfront properties
                                                         comments meet the intent of the
included in the parcel. AFRH was required
                                                         recommendations. No additional comments are
under the FY 2002 NDAA to acquire the parcel.
                                                         required.
The FY 2002 NDAA also gave AFRH the
authority to dispose of property that it
determined to be “excess to the needs of the
Retirement Home.” As a result, AFRH
officials purchased the 10.02-acre parcel for
about $5.7 million and subsequently sold the




                                                     i
Report No. D-2010-045 (Project No. D2009-D000CG-0276.000)           February 22, 2010

Recommendations Table

         Management                 Recommendations          No Additional Comments
                                   Requiring Comment               Required
Chief Operating Officer, Armed                              1, 2
Forces Retirement Home




                                      ii
Table of Contents

Introduction                                                          1

      Objectives                                                      1
      Background                                                      1
      Review of Internal Controls                                     3

Finding. The Armed Forces Retirement Home’s Purchase and Subsequent
Sale of Property in Gulfport, Mississippi                             4

      Recommendations, Management Comments, and Our Response          19

Appendix

      Scope and Methodology                                           21

Management Comments                                                   23
Introduction
Objectives
The overall objective of the audit was to determine whether the Armed Forces Retirement
Home (AFRH) complied with applicable laws and regulations when conducting its real
estate transactions. We reviewed the decisions that led to the real estate transactions and
determined whether AFRH followed appropriate procedures during the acquisition,
modification, and sale of the property. We also reviewed other issues related to the real
estate transactions. See the Appendix for the scope and methodology related to the
objectives.

Background
This audit was initiated in response to language contained in the report of the House
Armed Services Committee accompanying H.R. 2647 (H. Rept 111-166), the National
Defense Authorization Act for FY 2010. The report required the DOD Office of
Inspector General (IG) to review the AFRH 2003 real estate transactions and subsequent
boundary adjustments in Gulfport, Mississippi, including:

               (1) The intent or purpose behind AFRH’s decision to acquire and
               subsequently sell the property within such a short period of time;

               (2) If appropriate procedures were followed in the acquisition,
               modification of parcel boundaries, and sale of the beachfront parcels,
               including an examination of whether the appraisals, property listings,
               surveys, and bid offerings followed generally accepted practices; and

               (3) Other issues related to the overall real estate transaction.



Congressman Gene Taylor also raised concerns about the real estate transactions. On
February 3, 2009, Congressman Taylor wrote a letter to the Secretary of Defense
outlining concerns about the acquisition and subsequent sale of real property of AFRH in
Gulfport, specifically regarding the appraisal and sale values of the two beachfront
properties.

AFRH
According to the AFRH Web site, the U.S. Soldiers’ and Airmen’s Home located in
Washington, D.C., was merged into a single agency with the U.S. Naval Home in
Gulfport in 1991. The U.S. Naval Home originally opened in Philadelphia in 1834; the
Gulfport location was developed in the late 1960s when the Philadelphia facility could no
longer be modernized and expanded to meet the needs of the home. In 2001, Congress
established AFRH as an independent organization in the executive branch and changed
the name of the U.S. Soldier’s and Airmen’s Home to AFRH-Washington and the name
of the U.S. Naval Home to AFRH-Gulfport. AFRH is partially funded by withholdings



                                                    1
from active-duty Service members, fines, and interest from the AFRH Trust Fund. The
AFRH mission is to fulfill our Nation’s commitment to its veterans by providing a
premier retirement community.

Before Hurricane Katrina damaged the site in August 2005, AFRH planned to renovate
and expand the Gulfport facility. AFRH received authorization to use funds from the
AFRH Trust Fund for this renovation and expansion in Public Law 107-107, the FY 2002
NDAA, subject to the review and approval of the Secretary of Defense. Subsequently,
extensive damage to the AFRH-Gulfport facility from Hurricane Katrina resulted in the
demolition of the facility and plans for the construction of a new facility. The new
facility is scheduled to be completed in 2010 and estimated to cost about $194 million,
according to the AFRH-Gulfport Web site.

FY 2002 NDAA
The FY 2002 NDAA established AFRH as an independent entity in the executive branch
and designated the Chief Operating Officer (COO) of AFRH as the head of the retirement
home, subject to the authority, direction, and control of the Secretary of Defense. The
Act required the existing AFRH Board to continue to serve until the Secretary of Defense
appointed the first COO, who would then take over the duties of the Board. The Act
established the process AFRH uses for purchasing and disposing of property. The Act
states:

               The Secretary of Defense may acquire, for the benefit of the Retirement
               Home, property and facilities for inclusion in the Retirement Home.
               The Secretary of Defense may dispose of any property of the
               Retirement Home, by sale, lease, or otherwise, that the Secretary
               determines is excess to the needs of the Retirement Home. The
               proceeds from such a disposal of property shall be deposited in the
               Armed Forces Retirement Home Trust Fund. No such disposal of real
               property shall be effective earlier than 120 days after the date on which
               the Secretary transmits a notification of the proposed disposal to the
               Committees on Armed Services of the Senate and the House of
               Representatives.

The FY 2002 NDAA also allowed AFRH to use money from the AFRH Trust Fund for
the expansion of the AFRH-Gulfport facility. The FY 2002 NDAA authorized the use of
$22.4 million from the AFRH Trust Fund, subject to the review and approval of the
Secretary of Defense, for the development and construction of a blended-use, multicare
facility and for the acquisition of a parcel of real property adjacent to the retirement home
consisting of approximately 15 acres.

Office of the Under Secretary of Defense for Personnel and
Readiness
The Principal Deputy Under Secretary of Defense for Personnel and Readiness
[USD(P&R)] is responsible for the selection, overall supervision, performance
evaluation, compensation, and termination of the AFRH COO. The COO reports to the
Principal Deputy USD(P&R) through the Deputy Under Secretary of Defense (Military


                                                  2
Community and Family Policy) and the Principal Director in the Office of the Deputy
Under Secretary of Defense (Military Community and Family Policy), who have day-to-
day oversight of policy and congressional matters regarding AFRH.

Review of Internal Controls
DOD Instruction 5010.40, “Managers’ Internal Control (MIC) Program Procedures,”
January 4, 2006, requires DOD organizations to implement a comprehensive system of
internal controls that provides reasonable assurance that programs are operating as
intended and to evaluate the effectiveness of the controls. We identified internal control
weaknesses in the way that AFRH conducted its real estate transactions. AFRH officials
did not perform an appraisal before the sale of the two beachfront properties; the buyer
used the same real estate agent that AFRH officials listed the beachfront properties with,
creating the appearance of a conflict of interest; and AFRH and did not adequately
document price negotiations during the sale of the two beachfront properties.
Implementing Recommendations 1 and 2 will improve the process AFRH follows in
future AFRH real estate transactions. We will provide a copy of the report to the senior
officials responsible for internal controls in the Office of USD(P&R) and AFRH.




                                            3
Finding. The Armed Forces Retirement
Home’s Purchase and Subsequent Sale of
Property in Gulfport, Mississippi
AFRH officials acted within the authority given to them under the FY 2002 NDAA when
acquiring a 10.02-acre parcel of property adjacent to the AFRH-Gulfport facility and
subsequently disposing of the two beachfront properties contained in the parcel. The
FY 2002 NDAA required AFRH to acquire the parcel. The FY 2002 NDAA also gave
AFRH, subject to the review and approval of the Secretary of Defense, the authority to
dispose of property determined to be “excess to the needs of the Retirement Home.”

      AFRH intended to purchase the 10.02 acres for about $1 to $2 million to expand
       AFRH-Gulfport into a blended-use, multicare facility; however, the purchase
       price increased to about $5.7 million, reducing the amount available for
       construction. To recoup some of the funds, AFRH officials divided the
       10.02 acres into three parcels and sold the two beachfront parcels including the
       homes located on the parcels.

      Appraisal Associates and Ladner Appraisal Group, Inc., each prepared appraisals
       of the 10.02-acre parcel that conformed to generally accepted practices. City of
       Gulfport officials followed applicable laws and regulations when approving the
       AFRH application to modify parcel boundaries of the 10.02 acres. AFRH
       officials did not have an appraisal done of the two beachfront parcels before the
       sale and instead had two Gulfport real estate agencies conduct market surveys to
       determine the listing prices. The buyer used the same real estate agent that AFRH
       officials listed the beachfront properties with. AFRH officials stated they
       accepted the offers on the two beachfront properties without documenting price
       negotiations.

      We did not find any other issues related to the overall real estate transactions.

As a result, AFRH officials purchased the 10.02-acre parcel for about $5.7 million and
subsequently sold the two beachfront parcels for about $1 million. However, if AFRH
officials had required appraisals of the beachfront parcels before the sale, officials may
have been able to sell the properties for a higher amount, resulting in additional money
for the AFRH Trust Fund. In addition, the use of separate real estate agents could have
eliminated the appearance of a conflict of interest and increased documentation of the
negotiations.

AFRH Authority to Purchase and Sell Property
AFRH officials acted within the authority given to them under the FY 2002 NDAA
during the purchase, resubdivision, and subsequent sale of property adjacent to the
AFRH-Gulfport facility. The FY 2002 NDAA required AFRH to purchase the available


                                             4
10.02-acre parcel 1 adjacent to the AFRH-Gulfport facility. The 10.02 acres contained
three parcels: Johnson Tract, located at 1804 Beach Drive (1.44 acres); Eleanor Culler
Tract I, located at 1814 Beach Drive (1.01 acres); and Eleanor Culler Tract II, located
behind 1804 and 1814 Beach Drive 2 (7.57 acres). The FY 2002 NDAA authorized
AFRH officials to use $22.4 million out of the AFRH Trust Fund and required that the
funds be made available, subject to the review and approval of the Secretary of Defense,
for the “development and construction of a blended use, multicare facility at the Naval
Home” 3 and “for the acquisition of a parcel of real property adjacent to the Naval Home
consisting of approximately 15 acres.” AFRH purchased the property for about
$5.7 million, which it withdrew from the AFRH Trust Fund. As a result of AFRH
officials purchasing the property at a significantly higher price than anticipated, AFRH
incurred additional costs and liabilities that reduced the funds available for the
construction of the blended-use, multicare facility. According to AFRH officials, to
recoup some of the funds, they divided the 10.02 acres into three parcels and sold the two
beachfront parcels and the homes located on the parcels. AFRH officials stated the sale
resulted in about $1 million in proceeds, which AFRH officials deposited into the AFRH
Trust Fund. Figure 1 shows an aerial view of the AFRH-Gulfport facility. The area
outlined in red is the 10.02-acre parcel originally purchased by AFRH. The dashed white
lines indicate the beachfront parcels that were subsequently sold by AFRH. The structure
circled in yellow is the only part of the new AFRH-Gulfport facility that is positioned on
the 10.02-acre parcel.




1
  The FY 2002 NDAA listed the parcel as 15 acres for estimation purposes only. The true size of the parcel
of land AFRH intended to purchase was 10.02 acres.
2
  The street addresses of the two beachfront properties are referred to in some documents as East Beach
Drive or Beach Boulevard.
3
  The FY 2002 NDAA changed the name of the Naval Home to the Armed Forces Retirement Home.

                                                    5
                   Figure 1. Aerial View of the AFRH-Gulfport Facility




Note: All the markings on Figure 1 are approximate and were added by the audit team.
Source: AFRH

FY 2010 NDAA Issues and DOD IG Responses
DOD IG was required by the House of Representatives version of the FY 2010 NDAA to
review AFRH’s 2003 real estate transactions and subsequent boundary adjustments in
Gulfport. Specifically, H.R. 2647 required DOD IG to review:

                 (1) The intent or purpose behind AFRH’s decision to acquire and
                 subsequently sell the property within such a short period of time;

                 (2) If appropriate procedures were followed in the acquisition,
                 modification of parcel boundaries, and sale of the beachfront parcels,
                 including an examination of whether the appraisals, property listings,
                 surveys, and bid offerings followed generally accepted practices; and

                 (3) Other issues related to the overall real estate transaction.

Public Law 111-84, the FY 2010 NDAA, did not include the above language. However,
because of congressional concern over the real estate transactions, we discuss the issues
identified in H.R. 2647 in the sections that follow.

Issue 1
“The intent or purpose behind AFRH’s decision to acquire and subsequently sell the
property within such a short period of time.”

                                                      6
DOD IG Response
AFRH intended to purchase the 10.02 acres for about $1 to $2 million to expand the
AFRH-Gulfport facility; however, the purchase price increased to about $5.7 million,
reducing the amount available for construction of the blended-use, multicare facility.
AFRH officials stated that, to recoup some of the funds, they divided the 10.02 acres into
three parcels and sold the two beachfront parcels, including the homes located on the
parcels, to increase the AFRH Trust Fund balance.

Increased Sale Price of the 10.02 Acres
The AFRH Board anticipated purchasing the 10.02 acres for about $1.4 million; however,
the Naval Facilities Engineering Command (NAVFAC) had a second appraisal and a land
survey completed on the property, resulting in an increased assemblage value of about
$5.2 million. Appraisal Associates performed the first appraisal of the three parcels of
land. Appraisal Associates valued the 1804 Beach Drive parcel at $450,000; the
1814 Beach Drive parcel at $475,000; and the back parcel at $473,000. The date of the
appraisals was March 20, 2001. Appraisal Associates did not provide an appraised value
on the assemblage of the three parcels, but provided the appraised value of about
$1.4 million by combining the three parcels’ appraised values. AFRH officials
authorized NAVFAC officials to begin negotiations for the acquisition of the three
parcels on October 29, 2001, and NAVFAC officials completed a review of the Appraisal
Associates appraisals on December 20, 2001. The NAVFAC reviewer stated that the fair
market value estimates in the appraisals were subjective and lacked sufficient support for
the reviewer to concur with the value estimates. The reviewer recommended that
NAVFAC contract with another independent appraiser to provide the values required for
negotiations for the acquisition of the property.

At the request of NAVFAC officials, Ladner Appraisal Group, Inc., performed another
appraisal, which significantly increased the appraised value of the properties. Ladner
Appraisal Group, Inc., valued the 1804 Beach Drive parcel at $860,000; the 1814 Beach
Drive parcel at $750,000; and the back parcel at $950,000. Ladner Appraisal Group, Inc.,
also valued the assemblage of the three parcels at $5.1 million on February 21, 2002.

NAVFAC officials reviewed the Ladner Appraisal Group, Inc., appraisal on April 12,
2002, and found that the appraised acreages varied from the surveyed acreages. Cassady
& Associates, Inc., completed the final land survey of the properties after the appraisal,
and the acreage for 1804 Beach Drive and the back parcel were slightly different. The
1804 Beach Drive property lost 0.03 acres, which did not affect the appraised value,
while the back parcel gained 0.29 acres. The reviewer and the appraiser discussed and
reconciled the final appraised values based on the changes. The appraiser concluded that
the additional land would change the back parcel’s value to $990,000 and the revised
value for the combined parcels—that is, the assemblage value—to about $5.2 million.
Table 1 shows the appraised values determined by Appraisal Associates and Ladner
Appraisal Group, Inc., and the recommended NAVFAC values.




                                            7
              Table 1. Appraised Values and NAVFAC Recommendations
          Tract               Appraisal      Ladner Appraisal    NAVFAC
                              Associates’      Group, Inc.’s  Recommendation
                           March 20, 2001, February 21, 2002,  April 12, 20022
                              Appraisal1        Appraisal1
1804 Beach Drive               $450,000          $860,000          $860,000
(Johnson Tract)
1814 Beach Drive               $475,000          $750,000          $750,000
(Eleanor Culler Tract I)
Back Parcel                    $473,000          $950,000          $990,000
(Eleanor Culler Tract II)
Assemblage Value            Not Applicable      $5,100,000       $5,235,000
 1
  Dates listed are the value dates of the land appraisals.
 2
  NAVFAC officials also considered the Cassady & Associates, Inc., survey results when determining the
 recommended assemblage value.

 NAVFAC officials began negotiating the purchase agreement for AFRH by offering
 $5.1 million on March 13, 2002. Previously, the owners had asked about $6.1 million for
 the property. NAVFAC officials and the owners negotiated a purchase price of about
 $5.6 million for the 10.02-acre parcel on March 19, 2002. After the adjustment in
 appraised values because of the final surveyed acreages, NAVFAC officials negotiated
 with the owners and adjusted the purchase price for the property to about $5.7 million.

 AFRH Trust Fund Balance
 The AFRH COO stated AFRH officials purchased the 10.02-acre parcel with money
 from the AFRH Trust Fund, which had a declining balance. The purchase put further
 financial strain on the AFRH Trust Fund. The Office of Management and Budget
 expressed concerns about AFRH’s financial solvency. Figure 2 shows the AFRH Trust
 Fund Balance in 2002, 4 the year of the acquisition.




 4
     We did not validate the AFRH Trust Fund balance.

                                                        8
                         Figure 2. AFRH Trust Fund Balance




        Source: AFRH Congressional Justification FY 2009



According to AFRH officials, because of the Trust Fund’s declining financial position,
AFRH had already cut personnel and other costs. In light of this, the AFRH Board
believed that the purchase price was too high and inquired about purchasing only the
back parcel at a price consistent with the appraisal for the single parcel. However, the
property owners were only willing to sell the three parcels as one parcel. In a letter to the
Deputy Secretary of Defense recommending disapproval of the purchase request, the
USD(P&R) stated that the AFRH Trust Fund would not be able to support the debt that
would be necessary for the construction of the multicare facility if required to purchase
the land. However, the Deputy Secretary of Defense approved the purchase request on
October 25, 2002. The final settlement date for the purchase was November 15, 2002.
Figure 3 shows the timeline for the acquisition of the property.




                                               9
                    Figure 3. Timeline of Acquisition of Property




Construction Fund
AFRH officials purchased the 10.02 acres using part of the $22.4 million designated for
expansion of the property and new construction as required by the FY 2002 NDAA. The
purchase created a shortfall of funds necessary to complete the construction of the
blended-use, multicare facility. The AFRH Board’s preliminary plans for the blended-
use, multicare facility estimated the costs of construction to be from $25 million to
$27 million. The FY 2002 NDAA authorized only $22.4 million, subject to the review
and approval of the Secretary of Defense, of which a portion was required to be used to
purchase the adjacent property. AFRH officials purchased the property for about
$5.7 million of the $22.4 million available, leaving AFRH officials with a shortfall of
approximately $10 to $12 million. AFRH officials would need to finance this shortfall to
complete the construction, further straining the AFRH Trust Fund. According to the
USD(P&R), the AFRH Trust Fund could not support the debt required to make up the
difference. The Chairman of the AFRH Board stated that the acquisition of the land at
about $5.7 million would “seriously compromise an appropriate level of funding needed
for construction of the blended use, multicare facility at Gulfport.” The AFRH Board
viewed the construction of a blended-use, multicare facility as a higher priority than the
purchase of land for future uses.



                                            10
Beachfront Properties
AFRH officials decided to sell the two beachfront properties, located at 1804 and
1814 Beach Drive, to prevent further maintenance liability, to increase the AFRH Trust
Fund balance, and because AFRH needed only the back portion of the parcel for the
expansion of the retirement home. The two excess parcels included two homes that
would have required extensive repairs to be useful to the retirement home. Both homes
needed extensive upgrades on the power, water, heating, and air-conditioning systems, as
well as many interior renovations. The AFRH COO stated one home had been vacant for
more than a year, and mold was present on the walls and surfaces. Because of the
distance from the retirement home, AFRH officials would also need to install separate
security lighting if AFRH officials decided to keep the homes. In response to questions
from the Deputy Under Secretary of Defense (Military Community and Family Policy),
the AFRH COO stated, “AFRH has no extra funds to warrant maintaining these homes
for future use because they are unneeded in our master plan.” According to AFRH
officials, AFRH would have incurred additional costs if AFRH officials had decided to
keep the two beachfront homes. Figures 4 and 5 show some of the damage to 1804 and
1814 Beach Drive.

                   Figures 4 and 5. Damage to Beachfront Homes




Source: USD(P&R)

In addition to the added cost and liability, AFRH officials did not need the property to
immediately support the AFRH mission. In a letter from the AFRH Board to the Deputy
Under Secretary of Defense (Military Community and Family Policy) requesting that the
purchase request be disapproved, the Chairman of the Board stated that the AFRH
Executive Committee concluded “while the additional land has potential long-term
strategic value, it is not clear that the land is needed to make campus improvements to
serve the actuarially projected population of AFRH-Gulfport through at least 2020.” The
AFRH COO stated that as a result of the sale of the beachfront properties, $933,806.20
was deposited into the AFRH Trust Fund.




                                           11
Issue 2
“If appropriate procedures were followed in the acquisition, modification of parcel
boundaries and sale of the beachfront parcels, including an examination of whether the
appraisals, property listings, surveys, and bid offerings followed generally accepted
practices.”

DOD IG Response
Appraisal Associates and Ladner Appraisal Group, Inc., each prepared appraisals on the
property that conformed to generally accepted practices. City of Gulfport officials
followed applicable laws and regulations when approving the AFRH application to
modify parcel boundaries of the 10.02 acres. AFRH officials acted within the authority
given to them in the FY 2002 NDAA when disposing of the two beachfront properties.
AFRH officials did not have an appraisal done of the two beachfront parcels before the
sale but instead had market surveys completed. The buyer used the same real estate agent
that AFRH officials listed the beachfront properties with. In addition, according to
AFRH officials, they accepted the offers on the two beachfront properties without
documenting negotiations for a higher price.

Appraisal Associates’ Appraisals for the 10.02 Acres
According to NAVFAC officials, Appraisal Associates performed appraisals of the three
tracts contained in the 10.02-acre parcel that complied with the Uniform Standards of
Professional Appraisal Practice. NAVFAC officials completed a review of the Appraisal
Associates appraisals on December 20, 2001, and found that the appraisal reports met
Uniform Standards of Professional Appraisal Practice reporting requirements. However,
the NAVFAC reviewer stated that the fair market value estimates were subjective and
lacked sufficient support for the reviewer to concur with the value estimates. The
reviewer recommended that NAVFAC contract with another independent appraiser to
provide the values required for negotiations for the acquisition of the property.

Ladner Appraisal Group, Inc., Appraisal for the 10.02 Acres
NAVFAC officials stated Ladner Appraisal Group, Inc., performed a second appraisal on
the 10.02-acre parcel that used an appraisal methodology consistent with generally
accepted appraisal principles and provided the basis for a credible analysis. NAVFAC
officials reviewed the appraisal for compliance with Uniform Standards of Professional
Appraisal Practice and the Uniform Appraisal Standards for Federal Land Acquisition.

Resubdivision of the 10.02 Acres
AFRH officials stated after they acquired the 10.02-acre parcel, they resubdivided the
10.02 acres to sell the beachfront properties and replenish the AFRH Trust Fund.
Originally, the 10.02-acre parcel adjacent to the AFRH-Gulfport facility was divided into
three separate parcels: Johnson Tract, located at 1804 Beach Drive (1.44 acres); Eleanor
Culler Tract I, located at 1814 Beach Drive (1.01 acres); and Eleanor Culler Tract II,
located behind 1804 and 1814 Beach Drive (7.57 acres). AFRH officials purchased these
three parcels totaling 10.02 acres although, according to the AFRH COO, AFRH needed

                                           12
only about 5 acres of the back portion of the 10.02 acres. Therefore, AFRH officials
divided the land into three parcels and sold the two beachfront parcels. The AFRH COO
stated that a fence behind the homes was used to determine the property lines, leaving
AFRH with about 6 acres. AFRH officials applied to the City of Gulfport for the
resubdivision of the 10.02 acres on January 30, 2003. City of Gulfport officials approved
the AFRH application on May 15, 2003. Table 2 shows the original parcel sizes before
AFRH purchased the 10.02 acres, and the resubdivided parcel sizes according to
USD(P&R).

                         Table 2. 10.02-Acre Resubdivision
                      Parcel                      Original Size                      Size After
                                                     (acres)                        Resubdivision
                                                                                       (acres)
1804 Beach Drive                                                   1.44                 1.42
1814 Beach Drive                                                   1.01                 2.39
Eleanor Culler Tract II (retained by AFRH)                          7.57                 6.21
Total                                                              10.02                10.02
Source: USD(P&R)

Sale of Beachfront Properties
AFRH officials acted within the authority given to them under the FY 2002 NDAA when
disposing of the two beachfront properties. The FY 2002 NDAA established the process
AFRH officials can use for purchasing and disposing of property. For disposing of
property the Act states:

              The Secretary of Defense may dispose of any property of the
              Retirement Home, by sale, lease, or otherwise, that the Secretary
              determines is excess to the needs of the Retirement Home. . . No such
              disposal of real property shall be effective earlier than 120 days after
              the date on which the Secretary transmits a notification of the proposed
              disposal to the Committees on Armed Services of the Senate and the
              House of Representatives.

On May 20, 2003, the AFRH COO sent a memorandum to the Deputy Under Secretary of
Defense (Military Community and Family Policy) informing him of the receipt of two
signed sales contracts for 1804 and 1814 Beach Drive. In the memorandum, the AFRH
COO stated that the beachfront land had never been utilized by the Federal Government
in any capacity and requested that notification letters be forwarded to the House and
Senate Armed Services Committees. On August 6, 2003, the Principal Deputy of the
Office of the USD(P&R) sent letters to the Chairmen of the House and Senate Armed
Services Committees informing them of the proposed disposal of real property of the
AFRH. In the letter, the Principal Deputy stated that he decided to accept the offers on
1804 and 1814 Beach Drive, pending notification of the Senate and House Armed
Services Committees, 120 days before the completion of the sale. On January 12, 2004,



                                                13
159 days after the notification to the Senate and House Armed Services Committees, the
sale of the properties was finalized. Figure 6 shows the timeline of the sale of the
properties.
                Figure 6. Timeline of Disposal of Beachfront Properties




In accordance with the FY 2002 NDAA, AFRH officials stated about $934,000 was
deposited into the AFRH Trust Fund from the sale of the properties. The FY 2002
NDAA stated that, “The proceeds from such a disposal of property shall be deposited in
the Armed Forces Retirement Home Trust Fund.” AFRH officials deposited a total of
$933,806.20 into the AFRH Trust Fund after settlement charges were paid. Of the
$933,806.20, $421,766.60 were proceeds from the sale of 1804 Beach Drive, and
$512,039.60 were proceeds from the sale of 1814 Beach Drive. Table 3 shows the
expenses and amounts paid by AFRH and by the buyers.




                                          14
                  Table 3. Expenses Paid by AFRH and Buyers, by Property
        Item                                        Property
                               1804 Beach Drive                  1814 Beach Drive
Sale Price                    $450,000                          $550,000
Expenses               Paid by AFRH      Paid by Buyer   Paid by AFRH      Paid by Buyer
    Commission              $27,000.00                        $33,000.00
    Loan fees and               $24.50        $4,996.34        $3,361.50       $6,426.05
    lender charges
    Title, recording,          $725.00        $1,057.50          $825.00       $1,110.00
    and transferring
    charges
    Additional                 $483.90                           $773.90
    charges
    Total Expenses        ($28,233.40)        $6,053.84     ($37,960.40)        $7,536.05
Total deposited            $421,766.60                       $512,039.60
into AFRH Trust
Fund


   Appraisals of Beachfront Parcels
   According to the AFRH COO, AFRH officials did not have appraisals completed of the
   two beachfront properties before the sale. The AFRH COO stated that two Gulfport real
   estate agencies conducted market surveys of comparable sales in the area to determine an
   acceptable listing price. The real estate agencies compared the two beachfront properties
   with beachfront homes sold within the past 18 months. The real estate agent stated the
   seller (AFRH COO) decided on the listing prices, and on January 30, 2003, the AFRH
   COO listed 1804 Beach Drive for $542,000 and 1814 Beach Drive for $687,762.
   However, AFRH should have had an appraisal conducted of the two beachfront
   properties by an accredited appraiser before the sale to ensure the listing prices were
   consistent with the fair market value of the properties and to avoid the appearance of any
   impropriety. Table 4 shows the listing prices compared with the earlier appraised values.




                                               15
             Table 4. Listing Price Compared With Appraised Values
    Property           Appraisal       Ladner Appraisal       Listing Price2
                       Associates’       Group, Inc.’s      January 30, 2003
                    March 20, 2001,    February 21, 2002,
                      Appraisals1         Appraisal1
1804 Beach Drive            $450,0003          $860,0003              $542,000

1814 Beach Drive                  $475,0004                   $750,0004                    $687,762

1
  Dates listed are the value dates of the land appraisals..
2
  The market surveys determined the listing prices, not the appraisals.
3
  Appraised values were determined when 1804 Beach Drive was .048 acres larger than when the listing
price was determined.
4
  Appraised values were determined when 1814 Beach Drive was 1.38 acres smaller than when the listing
price was determined.

General Services Administration Procedures
AFRH officials stated they did not use the General Services Administration (GSA) to
dispose of the beachfront properties. Generally, Federal agencies go through GSA to
dispose of excess real property. However, annotated section 411, title 24, United States
Code, “Hospitals and Asylums,” states that “the Secretary of Defense may dispose of any
property of the Retirement Home, by sale, lease, or otherwise, that the Secretary
determines is excess to the needs of the Retirement Home.” The proceeds will then be
deposited into the AFRH Trust Fund. The GSA Federal Management Regulation,
41 CFR parts 102-71 and 102-72 (November 8, 2005), states that GSA encourages
agencies with independent disposal authority to take advantage of services from agencies
with expertise in real property disposal. AFRH officials chose to sell the property
through a local real estate agency rather than go through GSA. The GSA Federal
Management Regulation also states that appraisals are generally required for all property
disposal transactions except when an appraisal will serve no useful purpose or when the
property does not exceed $300,000. AFRH officials sold both properties for more than
$300,000 each. The market surveys completed by the realtor were reflected in the
respective listing prices of $542,000 for 1804 Beach Drive and $687,762 for 1814 Beach
Drive.

AFRH officials may have sold the property for the same value or less if they had used
GSA to dispose of the two beachfront properties. The GSA Federal Management
Regulation outlines the standard procedures for the acquisition, management, utilization,
and disposal of real property. Specifically, if a Federal agency finds it has excess real
property, agency officials will determine whether there is any other Federal need for the
property. After the agency determines there is no longer a Federal need, the property is
made available for acquisition by State and local governments. If State and local
government officials do not have a need for the property, it will be made available to
nonprofit organizations or sold to the public through advertising, negotiation, or other
disposal action. GSA Real Estate Division officials confirmed that this is the standard


                                                  16
procedure followed for the disposal of excess property. GSA officials offered to handle
the disposal of the AFRH property by selling the beachfront parcels. The GSA offer to
sell the beachfront parcels included marketing efforts such as preparing briefing booklets
to present to the House and Senate Armed Services Committees, listing the properties on
the GSA Web site, placing ads in local newspapers, and preparing the closing documents.
According to the AFRH COO’s letter to the Deputy Under Secretary of Defense (Military
Community and Family Policy), the COO asked GSA officials how they would dispose
of the property; they said they would have auctioned the two properties and estimated
that the AFRH would have received about $400,000 per home. The AFRH COO stated
that he decided against using GSA to sell the property because he concluded that doing so
would result in a lower sale value than listing the properties with a real estate agent. As a
result, AFRH officials may not have realized a higher sales price for the two beachfront
properties by using GSA; in fact, the sale may have resulted in a smaller or no deposit
into the AFRH Trust Fund.

Use of Dual Real Estate Agent
The buyer used the same real estate agent that AFRH officials listed the property with, an
arrangement that could create the appearance of a conflict of interest. Both the AFRH
COO and the real estate agent confirmed that AFRH officials and the buyer used the
same realtor to negotiate and complete the sale of the beachfront properties. The AFRH
COO stated he contacted the office of a Member of Congress for the name of a real estate
agent specializing in Gulf coast properties to use to sell the properties. According to the
AFRH COO, after AFRH officials had listed the beachfront properties with the agent, the
buyer decided to use the same real estate agent to avoid paying additional commission
fees. The AFRH COO and the buyer signed a dual-agency confirmation, giving their
consent to use the same realtor to complete the real estate transaction. The dual-agency
confirmation explained that a disclosed dual agent is a licensee who, with the informed
written consent of the seller and buyer, is engaged as the agent for both the seller and the
buyer. The dual-agency confirmation also explained that the disclosed dual agent does
not represent the interests of one party to the exclusion of the interests of the other party.
The AFRH COO stated that he and the buyer conducted all negotiations verbally through
the real estate agent and did not document the negotiations that determined the final
purchase price. Using a separate real estate agent could have decreased the appearance of
a conflict of interest and also could have increased documentation of the negotiations.

Negotiation Documentation
The AFRH officials generally followed appropriate procedures during the sale of the two
beachfront parcels. However, the AFRH officials stated they accepted the offers on the
two beachfront properties without documenting negotiations. On February 6, 2003, two
different buyers submitted a total of three offers on the two beachfront parcels. One
buyer submitted an offer for 1814 Beach Drive with a purchase price of $600,000. The
real estate agent stated that the buyer’s offer was an either/or offer, which included
another purchase price of $700,000 if additional land was included with 1814 Beach
Drive. The other buyer submitted two offers: an offer for 1804 Beach Drive with a
purchase price of $450,000 and a second offer for 1814 Beach Drive with a purchase
price of $550,000. The AFRH COO accepted the two offers from the buyer who

                                             17
submitted offers for both 1804 and 1814 Beach Drive. According to the AFRH COO, he
accepted these offers because they enabled him to dispose of both beachfront parcels.
The AFRH COO stated he negotiated the sale price verbally through the real estate agent,
using as a benchmark for the negotiations the market survey completed before the
properties were listed. The AFRH COO also stated that all negotiations were verbal, and
once he and the buyer agreed on a price, the offer was submitted and accepted. The real
estate agent stated a majority of her real estate files and documentation were destroyed
during Hurricane Katrina. The AFRH COO and the real estate agent should have
documented the negotiations. Figure 7 shows the beachfront parcels, 1804 and
1814 Beach Drive, as photographed in September 2009.

                          Figure 7. 1804 and 1814 Beach Drive




Issue 3
“Other issues related to the overall real estate transaction.”

DOD IG Response
We did not identify any other issues related to the overall real estate transactions.

Conclusion
AFRH officials acted within the authority given to them under the FY 2002 NDAA when
acquiring a 10.02-acre parcel of property adjacent to the AFRH-Gulfport facility and
subsequently disposing of the two beachfront properties. Under the FY 2002 NDAA,
AFRH officials were required to use $22.4 million from the AFRH Trust Fund for the
construction of the AFRH-Gulfport facility and for the acquisition of a parcel of real
property adjacent to the home. AFRH officials intended to purchase the 10.02 acres for
about $1.4 million to expand the AFRH-Gulfport facility; however, the purchase price
increased to about $5.7 million, reducing the amount available for construction of the


                                              18
blended-use, multicare facility, AFRH officials divided the 10.02 acres into three parcels
and sold the two beachfront parcels including homes located on the parcels. As a result
of the sale, AFRH deposited $933,806.20 into the AFRH Trust Fund. Appraisal
Associates and Ladner Appraisal Group, Inc., each prepared appraisals that conformed to
accepted practices before AFRH purchased the parcel. City of Gulfport officials
followed applicable laws and regulations for approving the AFRH application to modify
parcel boundaries of the 10.02 acres. However, AFRH did not have an appraisal done of
the two beachfront parcels before the sale according to the AFRH COO; the buyer used
the same real estate agent that AFRH officials listed the properties with; and AFRH
accepted the offers on the two beachfront properties without documenting price
negotiations. We believe the process for conducting real estate transactions could have
been improved had AFRH officials had an appraisal completed of the two beachfront
properties before selling them and maintained adequate documentation of the rationale
for and process followed in all real estate transactions.

Recommendations, Management Comments, and Our
Response
We recommend that the Chief Operating Officer, Armed Forces Retirement Home,
in future disposals of excess property:

       1. Obtain an appraisal by an accredited appraiser of the property to be
          disposed of.

Management Comments
The Deputy Under Secretary of Defense (Military Community and Family Policy) agreed
and stated that AFRH will follow the requirements of Public Law 111-288, the FY 2010
NDAA, in future disposals of excess property. The Deputy Under Secretary also noted
that the market comparisons AFRH relied on for this transaction provided a selling price
that was within the range of the two government-sponsored appraisals.

Our Response
The comments were responsive, and no additional comments are required. Public Law
111-288, the FY 2010 NDAA, requires the Secretary of Defense to be authorized by law
prior to acquiring real property costing more than $750,000 for inclusion in the
Retirement Home. If the Secretary of Defense determines that any property of the
Retirement Home is excess, the Secretary must dispose of the property in accordance
with subchapter III, title 40, chapter 5, United State Code, “Public Buildings, Property,
and Works.”


       2. Maintain adequate documentation of the rationale for and process
          followed in all real estate transactions, including negotiations between the
          Armed Forces Retirement Home and any potential buyers.



                                            19
Management Comments
The Deputy Under Secretary of Defense (Military Community and Family Policy) agreed
and stated that AFRH has followed guidance including Public Law 107- 107; the NDAA
for Fiscal Year 2002; OMB Circular A-124 [sic; A-123], “Management’s Responsibility
for Internal Controls,” December 21, 2004; Government Accountability Office Report
No. GAO-01-1008G, “Internal Control Management and Evaluation Tool,” August 2001;
the Federal Managers’ Financial Integrity Act; section 3512, title 31 United States Code;
and predecessor guidance of the information currently contained in the AFRH’s Internal
Control Notice.

Our Response
The comments were responsive, and no additional comments are required.




                                           20
Appendix. Scope and Methodology
We conducted this performance audit from July 2009 through January 2010 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on out audit objectives.
We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

We did not validate the AFRH Trust Fund balance; however, the balance may have been
validated by another organization. We were unable to ensure that we obtained all
documentation on the sale of the beachfront properties as a result of files lost in the wake
of Hurricane Katrina.

This audit was initiated in response to language contained in the report of the House
Armed Services Committee accompanying H.R. 2647 (H. Rept 111-166), the National
Defense Authorization Act for FY 2010. The report required DOD IG to review the
AFRH’s 2003 real estate transactions and subsequent boundary adjustments in Gulfport.

Congressman Gene Taylor also raised concerns about real estate transactions.
Congressman Taylor wrote a letter to the Secretary of Defense on February 3, 2009,
outlining concerns about the acquisition and subsequent sale of real property of the
AFRH in Gulfport, Mississippi. Concerns expressed in this letter included appraisal and
sale values of the beachfront properties.

We obtained and reviewed the Federal Property and Administrative Services Act of 1949;
Public Law 107-107, “National Defense Authorization Act for FY 2002”; Public
Law 107-314, “National Defense Authorization Act for FY 2003”; Public Law 108-136,
“National Defense Authorization Act for FY 2004”; annotated section 411, title 24,
United States Code, “Hospitals and Asylums”; the GSA Federal Management Regulation,
41 CFR sections 102-71 and 102-72; subchapter III, title 42, chapter 61, United States
Code, “Uniform Real Property Acquisition Policy”; and City of Gulfport
Ordinance 2608.

We also obtained and reviewed Gulfport real estate listings; appraisal of the property
completed by Ladner Appraisal Group, Inc., dated March 11, 2002; appraisals of the
property completed by Appraisal Associates dated April 3, 2001; NAVFAC reviews of
the appraisals dated December 20, 2001, and April 12, 2002; the scope of work for the
appraisal dated January 24, 2002; the invitation to bid on properties dated January 24,
2002; AFRH Board minutes; settlement statements dated November 15, 2002, and
January 12, 2004; and a warranty deed dated November 26, 2002. In addition, we
reviewed the contract for appraisal services between NAVFAC and Ladner Appraisal
Group, Inc., contract N62467-02-RP-00074, dated February 15, 2002.




                                             21
We interviewed staff from the AFRH in Washington, D.C., and Gulfport; USD (P&R)
officials in Washington, D.C.; NAVFAC officials in Washington, D.C., and Jacksonville,
Florida; and GSA officials in Washington, D.C., to determine their understanding and
involvement in the 2003 AFRH real estate transactions.

We interviewed the real estate agent in Gulfport who handled the sale of the AFRH
property to obtain information on standard real estate procedures and the processes the
real estate agent followed during the sale.

We interviewed City of Gulfport zoning officials to obtain information regarding the
resubdivision of land before AFRH sold the property. We reviewed property records at
the Harrison County Chancery Clerk’s office in Gulfport, Mississippi.

Use of Computer-Processed Data
We did not use computer-processed data to perform this audit.

Prior Coverage
No audits have been conducted on the real estate transactions of the AFRH – Gulfport
during the last 5 years.




                                           22
Deputy Under Secretary of Defense (Military Community
and Family Policy) Comments




                                23
24
